UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 21-2793

United States of America
Plaintiff - Appellee
v.
Peter George Noe, also known as Ghost
Defendant - Appellant
Appeal from U.S. District Court for the District of Minnesota
(0:03-cr-00008-JNE-l)
JUDGMENT

Before COLLOTON, GRUENDER, and ERICKSON, Circuit Judges.

This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a).
August 27,.2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

CASE 0:03-cr-00008-JNE-FLN Doc.420 Filed 07/27/21 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
United States of America,
Plaintiff,
Case No. 03-cr-08 (JNE) (1)
ORDER

v.
Peter George Noe,
Defendant.

This case is before the Court on Defendant’s (1) motion for a writ of audita
querela or to reconsider the denial of his motion under 18 U.S.C. § 3582(c)(2); (2) motion
for appointment of counsel or copies of certain documents used by the probation office to
prepare his presentence investigation report; and (3) motion for appointment of counsel,
extension of time, and copies of the documents and the government’s response.1 The
Court denies his motion for a writ of audita querela, see United States v. Feist, 346 F.
App’x 127, 128 (8th Cir. 2009) (per curiam), and his motion to reconsider, see United
States v. Mojle, 989 F.3d 646, 648 (8th Cir. 2021). The Court denies Defendant’s
motions for appointment of counsel. See Pennsylvania v. Finley, 481 U.S. 551, 556
(1987); McCall v. Benson, 114 F.3d 754, 756 (8th Cir. 1997). The Court denies his
motion for an extension of time and motions for copies of documents used by the
/

probation office to prepare his presentence investigation report, see United States v.

l

Defendant received a copy of the government’s response and filed a reply. A case
cited in the reply to support the argument that a writ of audita querela is available to him,
Kessackv. United States, No. C05-1828, 2008 WL 189679 (W.D. Wash. Jan. 18, 2008),
“is contrary to the law of [the Ninth] Circuit.” United States v. Gamboa, 608 F.3d 492,
495 (9th Cir. 2010).
1

CASE 0:03-cr-00008-JNE-FLN Doc. 420 Filed 07/27/21 Page 2 of 2

Rashaad, No. 01-cr-00195, 2015 WL 13722137, at *1-2 (W.D.N.C. Mar. 23, 2015).
Defendant’s motion for a copy of the government’s response is denied as moot.
Based on the files, records, and proceedings herein, and for the reasons stated
above, IT IS ORDERED THAT Defendant’s motions [Docket Nos. 409, 411, and 416]
are DENIED.
Dated: July 26, 2021
s/ Joan N. Ericksen
JOANN. ERICKSEN
United States District Judge

2

